No. 19-7
IN THE

$'upreme ~ourt of toe Wniteb $'tateg
SEILA LAw LLC ,

Petitioner,
V.

CONSUMER FINANCIAL PROTECTION BUREAU,

Respondent.
CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief for Amicus Curiae Center for the Rule of Law in Support of Petitioner
contains 6,186 words and complies with the word limitation established by
Rule 33.l(g)(xii) of the Rules of this Court.
Dated: December 16, 2019

